No. 20-307
IN THE

Supreme Court of the United States
————
SHAHROKH MIRESKANDARI,
v.

Petitioner,

BARRINGTON MAYNE, et al.,
Respondents.
————
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit
————
MOTION FOR LEAVE TO FILE BRIEF
AMICUS CURIAE AND BRIEF AMICUS CURIAE
OF THE SOCIETY OF BLACK LAWYERS
IN SUPPORT OF PETITIONER
————
JOSEPH E. SANDLER
Counsel of Record
SANDLER, REIFF,
LAMB, ROSENSTEIN &
BIRKENSTOCK, PC
1090 Vermont Avenue, N.W.
Suite 750
Washington, D.C. 20005
(202) 479-1111
sandler@sandlerreiff.com
Counsel for Amicus Curiae
October 9, 2020
WILSON-EPES PRINTING CO., INC. – (202) 789-0096 – WASHINGTON, D. C. 20002

MOTION FOR LEAVE TO FILE BRIEF
AMICUS CURIAE OF THE SOCIETY OF BLACK
LAWYERS IN SUPPORT OF PETITIONER
The Society of Black Lawyers, a nonprofit organization based in the United Kingdom, hereby respectfully
moves for leave to file the attached brief as amicus
curiae in this case. All counsel of record were timely
notified of the Society’s intent to file this brief.
Consent was obtained from counsel for Petitioner, and
from counsel for all Respondents with an interest
in disposition of the Petition (Richard Hegarty,
Malcolm Lees, Barrington Mayne, David Middleton,
Antony Townsend, the Law Society of England and
Wales and the Solicitors Regulation Authority) and for
Respondents Patrick Rohrbach and Paul Baxendale
Walker. One party, Mansur Rahnema, is not represented
by counsel. His claims were dismissed on grounds
entirely unrelated to the questions presented in the
Petition for Writ of Certiorari in this case, and he has
no interest whatsoever in the outcome of the Petition.
Counsel for two of the parties to the first appeal,
Associated Newspapers Limited and David Gardner,
were timely contacted but stated that “our clients are
no longer involved in this case, and as the Petition
indicates, it does not involve the prior proceedings
concerning our clients. We have no position with
respect to your application.”
This case raises the issue of whether two of the
Respondents in this case, the Law Society of England
and Wales (“LSE”) and the regulatory arm of the
LSE, the Solicitors Regulation Authority (“SRA”), are
“organs” of the Government of the United Kingdom for
purposes of the Foreign Sovereign Immunities Act, 28
U.S.C. §1603(b). The Society of Black Lawyers (“SBL”)
is a nonprofit organization in the United Kingdom that

advocates for the interests of Black and ethnic
minority solicitors and barristers and works to combat
racial discrimination within the legal profession and
in the country’s criminal justice system. Formed in
1973, the SBL is the oldest organization of African,
Asian and Caribbean lawyers in the U.K. In pursuit
of its objective, the SBL has lobbied Parliament,
provided representatives to serve on task forces and
commissions, engaged in public education by providing speakers for conferences, lectures and media
interviews, and instituted litigation and filed friend of
the court briefs in the U.K..
The SBL has long taken a leading role in publicly
raising the issue of discriminatory treatment of minority solicitors by the LSE and SRA and in advocating
for reforms. The SBL played a leading role in having
the issue of discriminatory treatment raised in the
House of Commons, which led the SRA to commission
a major investigation of the subject and to then
commit itself to instituting reforms.
The SBL has from the outset taken an interest
in the disciplinary proceedings instituted by the
SRA against the Petitioner in this case, Shahrokh
Mireskandari, viewing those proceedings as a prime
example of the discriminatory treatment of minority
lawyers. The SBL has a strong interest in preventing
the SRA from exporting its racially discriminatory
conduct to other nations. It has an interest in preventing the SRA from trying to shield itself, through
invocation of foreign sovereign immunity, from accountability for unlawful actions taken against U.K. lawyers
in those other nations.
As an organization of U.K. lawyers regulated by the
LSE and SRA, as an organization that has closely
monitored the activities and operation of the SRA, the

SBL has intimate knowledge of the history, nature
and structure of those entities, from the perspective of
members of the U.K. Bar.
For these reasons the SBL has a special interest in
and knowledge of the issues raised in the Petition.
The SBL respectfully requests that this Court grant it
leave to file the attached amicus brief in support of the
Petition for Writ of Certiorari.
Respectfully submitted,
JOSEPH E. SANDLER
Counsel of Record
SANDLER, REIFF,
LAMB, ROSENSTEIN &
BIRKENSTOCK, PC
1090 Vermont Avenue, N.W.
Suite 750
Washington, D.C. 20005
(202) 479-1111
sandler@sandlerreiff.com
Counsel for Amicus Curiae
October 9, 2020

TABLE OF CONTENTS
Page
TABLE OF AUTHORITIES ................................

ii

INTEREST OF AMICUS CURIAE .....................

1

SUMMARY OF ARGUMENT .............................

3

ARGUMENT ........................................................

4

I. THE LSE AND SRA DO NOT ACT “ON
BEHALF OF” THE GOVERNMENT OF
THE UNITED KINGDOM .......................

5

II. SOVEREIGN IMMUNITY SHOULD
NOT BE EXTENDED TO PROTECT
PRIVATE ACTS OF RACIAL DISCRIMINATION .........................................

13

CONCLUSION ....................................................

20

(i)

ii
TABLE OF AUTHORITIES
CASES

Page(s)

Bates v. State Bar of Arizona,
433 U.S. 350 (1977) ...................................

9

California Dep’t of Water Resources v.
Powerex Corp.,
533 F.3d 1087 (9th Cir. 2008) ...................

5, 6

Goldfarb v. Virginia State Bar,
421 U.S. 773 (1975) .....................................

9

In re Attorney Discipline System,
19 Cal.4th 582, 967 P.2d 49 (1998) ..........

8

In re Rose,
22 Cal.4th 430, 993 P.2d 956 (2000) ........

8

Lebbos v. State Bar,
53 Cal.3d 37, 806 P.2d 317 (1991) ............

8

Powerex Corp. v. Reliant Energy Servs., Inc.,
551 U.S. 224 (2007) ................................... 12, 13
INTERNATIONAL CASES AND FILINGS
X v. United Kingdom (Solicitors’ Advertising),
4 E.H.R.R. 350 (1982) [E.U.] .................... 9, 10
Solicitors Disciplinary Tribunal [U.K.]:
In the Matter of the Solicitors Act 1974
Between Heer Manak Solicitors, et al.,
Case No. 11165-2013, Memorandum of
Application to Strike Out the Applicant’s
Case (June 23, 2015) .................................

17

In the Matter of Solicitors Act 1974
between SRA and Nabeel Amer Sheikh,
Case No. 11821-2018, Judgment (Nov.
15, 2019) ....................................................

18

iii
TABLE OF AUTHORITIES—Continued
CONSTITUTION

Page(s)

Cal. Const. art VI, § 9 ..................................

8

STATUTES
18 U.S.C. § 951 ............................................

6

28 U.S.C. § 1603(b) ......................................

5

INTERNATIONAL STATUTES
Legal Services Act 2007 [U.K.]:
ch. 29, §§ 38-41 .........................................

11

ch. 29, Sched. 1, ¶26 .................................

12

ch. 29, Sch. 4, Part 1 .................................

11

ch. 29, Sch. 16, ¶48 ...................................

11

Solicitors Act 1974 [U.K.]:
ch. 47, § 35 ................................................

10

ch. 47, § 46 ................................................

11

ch. 47, Sched. 1..........................................

10

RULES
Ariz. R. Sup. Ct. 32(a) ...................................

8

Mass. R. Sup. Jud. Ct. 4:01, § 5 ...................

8

22 NYCRR § 1240.4 (2018) ...........................

7

22 NYCRR § 1240.7 (2018) ...........................

7

22 NYCRR § 1240.8 (2018) ...........................

7

iv
TABLE OF AUTHORITIES—Continued
OTHER AUTHORITIES

Page(s)

Cordery on Legal Services Issue 67 (2015)..

11

Cordery on Legal Services Issue 63 (2011)..

10

Eli Wald, Should Judges Regulate Lawyers,?
42 McGeorge L. Rev. 149 (2010) ...............

7

Gus John, Independent Comparative Case
Review—The Solicitors Regulation Authority (2014).................................................... 15, 16
John Hyde, “Solicitor issues unprecedented
proceedings against SRA,” The Law
Society Gazette (March 2, 2020) ...............

18

Judith McMorrow, Judicial Attitudes Toward
Confronting Attorney Misconduct:
A
View from the Reported Decisions, 32
Hofstra L. Rev. 1425 (2004) ......................

7

Legal Services Board Website, About Us,
https://www.legalservicesboard.org.uk/ab
out-us/who-we-are (last visited Oct. 2,
2020) ..........................................................

12

The Law Society, The Impact of Regulatory
Decisions of the Investigations and
Enforcement Unit on Black and Minority
Ethnic Solicitors (2006) ............................

14

LSE, The Charter of the Society (1845),
available at https://tlsprdsitecore.azure
edge.net/-/media/files/about-us/our-govern
ance/royal-charter-and-supplemental-cha
rters-feb-2020.pdf......................................

9

v
TABLE OF AUTHORITIES—Continued
Page(s)
LSE Website, About Us, https://www.
lawsociety.org.uk/about-us/ (last visited
October 2, 2020) ........................................

9

Mass. Board of Bar Overseers, https://www.
massbbo.org/Who_We_Are_BBO_OGC#
BBO (last visited Oct. 5, 2020) .................

8

SRA, Annual Report 2009-2010 (2010) ........

10

SRA, Independent Review Into Disproportionate Regulatory Outcomes for
Black and Minority Ethnic Solicitors
(2008) ................................................... 14, 15, 16
“Solicitor haunted by fraud case is driven to
suicide,” The Standard (June 24, 2007),
available at www.standard.co.uk/news/
solicitor-haunted-by-fraud-case-is-driveto-suicide-6592859.html#comments (last
visited Oct. 4, 2020) ..................................

16

INTEREST OF AMICUS CURIAE1
The Society of Black Lawyers (“SBL”) is a nonprofit
organization in the United Kingdom that advocates for
the interests of ethnic minority solicitors and barristers and works to combat racial discrimination within
the legal profession and in the country’s criminal
justice system. Formed in 1973, the SBL is the oldest
organization of African, Asian and Caribbean lawyers
in the U.K. In pursuit of its objectives, the SBL has
lobbied Parliament, provided representatives to serve
on task forces and commissions, engaged in public
education by providing speakers for conferences, lectures and media interviews, and instituted litigation
and filed friend of the court briefs in the U.K.
The SBL has long taken a leading role in publicly
raising the issue of discriminatory treatment of minority solicitors by two of the Respondents in this case,
the Law Society of England and Wales (“LSE”) and the
regulatory arm of the LSE, the Solicitors Regulation
1

Pursuant to Sup. Ct. R. 37.6, amicus affirms that no counsel
for a party authored this brief in whole or in part and no person
or entity other than amicus made a monetary contribution
intended to fund the preparation or submission of this brief.
All counsel of record were timely notified of the intent to file
this brief. One party, Mansur Rahnema, is not represented by
counsel. His claims were dismissed on grounds entirely unrelated to the questions presented in the Petition for Writ of
Certiorari in this case, and he has no interest whatsoever in the
outcome of the Petition. Counsel for two of the parties to the first
appeal, Associated Newspapers Limited and David Gardner,
were timely contacted but stated that “our clients are no longer
involved in this case, and as the Petition indicates, it does not
involve the prior proceedings concerning our clients. We have
no position with respect to your application.” Counsel for the
Petitioner and for the remaining Respondents provided written
consent to the filing of this Brief.

2
Authority (“SRA”). The SBL was instrumental in
having the issue of discriminatory treatment raised in
the House of Commons, which led the SRA to commission a major investigation of the subject and to then
commit itself to instituting reforms. Those reforms
have largely proven ineffective.
The SBL has long taken an interest in the disciplinary proceedings instituted by the SRA against the
Petitioner in this case, Shahrokh Mireskandari, viewing
those proceedings as a prime example of the discriminatory treatment of minority lawyers. Mireskandari
was one of the most successful ethnic minority lawyers
in the United Kingdom. He regularly did pro bono
discrimination work for the community, most notably
for members of the National Black Police Association.
The SBL has a strong interest in preventing the SRA
from exporting its racially discriminatory conduct
to other nations. It has an interest in preventing the
SRA from trying to shield itself, through invocation of
foreign sovereign immunity, from accountability for
unlawful actions taken against U.K. lawyers in those
other nations. The SBL is concerned as well about the
prospect that bar regulatory agencies from authoritarian countries could, with impunity, harass, threaten
or take other illegal actions against lawyers from
those countries who are present in the U.S., under the
guise of investigating those lawyers for purposes of
disciplinary proceedings.
As an organization of U.K. lawyers regulated by the
LSE and SRA, the SBL has intimate knowledge of those
entities from the perspective of members of the U.K.
Bar. For these reasons the SBL has a special interest
in and knowledge of the issues raised in the Petition.

3
SUMMARY OF ARGUMENT
The sovereign immunity issue in this case arises
from the racially discriminatory conduct of two entities–
Respondents Law Society of England (“LSE”) and the
Solicitors Regulation Authority (“SRA”)—entities that
have been widely criticized in their home country, the
U.K., for engaging in a pattern of such conduct. In this
case, however, they extended those activities across
the Atlantic into the U.S. The formulation applied by
the Ninth Circuit in analyzing sovereign immunity
failed to capture the true nature of those entities and
glossed over crucial differences between the locus of
authority for attorney discipline and regulation in the
United States and the United Kingdom.
In the United States, the authority for attorney
regulation and discipline belongs to each State’s highest court and is imposed either by agencies of the court
or by a bar association delegated authority directly
by that court. The attorney disciplinary function is
reserved to and treated as part of the judiciary.
By contrast, in the U.K., neither the LSE nor the
SRA is part of any branch of the U.K. Government.
The LSE is not overseen or controlled by any government agency. The U.K. Government itself has taken
the position in legal proceedings that the LSE is a
private entity and is not part of that Government. The
SRA is the regulatory arm of the LSE, with power to
investigate and close down solicitors’ practices, and to
prosecute cases before the separate tribunal that has
the power to suspend and disbar. The LSE and SRA
are accountable to and overseen by the Legal Services
Board, the authorizing statute for which explicitly
provides that the Board “is not to be regarded (a) as
the servant or agent of the Crown, or (b) as enjoying
any status, immunity or privilege of the Crown.”

4
The Ninth Circuit’s decision to confer foreign sovereign immunity on the acts of the LSE and SRA is
especially troublesome because of a history and
pattern of racially discriminatory practices by these
entities, inflicted on Black and ethnic minority solicitors in the U.K. A major report issued in 2008 confirmed this pattern, which has continued to the
present day and is not only demonstrated by statistical
patterns, but illustrated by recent examples of egregious treatment of minority solicitors. In this case, the
SRA exported its discriminatory targeting of minority
solicitors beyond the borders of the U.K., into the
United States. Allowing these private, nongovernmental entities, the LSE and SRA, to escape accountability
for their discriminatory acts in the U.S. based on
foreign sovereign immunity would inhibit the continuing effort to combat the pattern and practice of
discrimination against minority lawyers in the U.K.,
and would open the door in the U.S. for authoritarian
regimes to use bar disciplinary proceedings to harass
and attack lawyers from those countries who reside or
work in the U.S. and who have advocated for human
rights in ways that offended powerful interests in
those countries.
ARGUMENT
This case involves racially discriminatory conduct
by two private, foreign entities- Respondents Law
Society of England (“LSE”) and the Solicitors Regulation
Authority (“SRA”). Amicus Society of Black Lawyers
has for many years worked to expose a pattern
of racially discriminatory conduct by these entities
and has pressed for reforms. This case stands out not
merely because a discriminatory investigation crossed
the borders of the U.K. and the ocean to reach into the
United States, where SRA agents engaged in tortious

5
and illegal acts. The case also stands out because
the Ninth Circuit immunized the LSE and SRA, and
their individual officials, from liability by applying a
fundamentally mistaken approach to foreign sovereign
immunity. Neither the LSE nor the SRA is a government agency, entity or organ of the U.K. Government.
The Ninth Circuit erred in treating them as part of
the U.K. Government under the Foreign Sovereign
Immunities Act, when the U.K. Government itself
does not treat them as such.
I. THE LSE AND SRA DO NOT ACT “ON
BEHALF OF” THE GOVERNMENT OF
THE UNITED KINGDOM
As the Petition explains, the Courts of Appeal have
adopted various multi-factor tests for determining
whether an entity will be considered an “organ” of a
foreign state for purposes of the Foreign Sovereign
Immunities Act, 28 U.S.C. § 1603(b). Petition for a
Writ of Certiorari (“Petition”) 18-22. Applying a gloss
on top of those tests, the Ninth Circuit has held that
an entity will be considered an “organ” of a foreign
state if it engages “in a public activity on behalf of
the foreign government.” California Dep’t of Water
Resources v. Powerex Corp., 533 F.3d 1087, 1098 (9th
Cir. 2008). Applying that test in this case, in the first
appeal, the Ninth Circuit found that, because the
LSE and SRA are accountable to the Legal Services
Board and must act “in a manner compatible” with
statutorily-defined objectives, the LSE and SRA engage
in a public activity “‘on behalf of a foreign government.’”
Petition Appendix (“Pet. App.”) 89a (quoting Powerex,
533 F.3d at 1098). In its decision in the second appeal,
the Ninth Circuit then found that individual officials
of the SRA were entitled to common-law foreign
sovereign immunity because they “acted to further the

6
objectives of foreign government entities,” the LSE
and SRA. Id. 2a.2
In reaching that result, the Ninth Circuit did not
consider whether the U.K. Government recognizes the
LSE and SRA as governmental entities or as part of
the U.K. Government. It does not. The Ninth Circuit
did not inquire whether the U.K. Government formed
the LSE or SRA in the first instance. It did not. The
Ninth Circuit thus failed to address the sorts of issues
that, in other circuits would have helped determine
whether the LSE and SRA are part of the U.K. Government. Instead, the Ninth Circuit applied a formulation that, from the perspective of the Society of Black
Lawyers, whose members are subject to regulation by
the LSE and SRA, fails to capture the real nature of
these entities and glosses over crucial differences
between the locus of authority for attorney discipline
in the United States and in the United Kingdom.
In the United States, the authority for attorney
regulation and discipline belongs to each State’s highest court and is imposed either by agencies of the court
or by a bar association delegated authority directly by
that court. These entities are clearly “acting on behalf
of” the state government, specifically, its judicial branch.
2

Apart from the issue of whether the SRA is an organ of
a foreign government, the individual officials did not comport
themselves as representatives of a government agency. One
traveled on a police visa despite not being a police officer. Pet.
App. 26a. Neither registered as an agent of a foreign government
as required by 18 U.S.C. § 951 (“Whoever, other than a diplomatic or consular officer or attaché, acts in the United States as
an agent of a foreign government without prior notification to the
Attorney General if required [under Department of Justice regulations] shall be fined under this title or imprisoned not more
than ten years or both”).

7
By contrast, in the United Kingdom, the LSE and SRA
are not exercising any authority on behalf of any
agency of the Government of the U.K. The agency to
which the LSE and SRA are accountable, the Legal
Services Board, is itself not a government entity and
is not controlled by the judiciary or any other arm of
the Government. The LSE and SRA do not act “on
behalf of” the Government of the U.K.
In the U.S., ‘”in most states, if not all, the state's
supreme court is the ultimate arbiter of attorney
regulation and discipline.” Judith McMorrow, Judicial
Attitudes Toward Confronting Attorney Misconduct:
A View from the Reported Decisions, 32 Hofstra L. Rev.
1425, 1456 (2004). “In most jurisdictions, the entire
disciplinary system is premised on rules of professional
conduct promulgated by a state’s highest court. Rules
enforcement is managed by the delegation of power
from a state’s highest court to a disciplinary authority,
granting judges supervisory power over disciplinary
controls.” Eli Wald, Should Judges Regulate Lawyers,?
42 McGeorge L. Rev.149, 154-55 (2010).
In most states of this nation, regardless of whether
or not the state bar is “unified” or voluntary, the attorney disciplinary function is reserved to and treated as
part of the judiciary. In many states, the entity that
administers attorney disciplinary proceedings is an
agency or arm of the court itself. For example, in New
York, investigations of professional misconduct are
conducted by committees appointed by the Departments
of the Appellate Division of the Supreme Court; if
the committee finds probable cause that an attorney
engaged in misconduct, a proceeding is conducted
by the Appellate Division, which determines whether
to impose discipline. 22 NYCRR §§ 1240.4, 1240.7,
1240.8 (2018). In Massachusetts, the Board of Bar

8
Overseers is an arm of the Supreme Judicial Court,
the members of which are appointed by the Court and
the authority of which is set forth in Court rules. See
Mass. Supreme Judicial Court Rule 4:01, § 5. “The
Board is an official body subject to the supervision
of the Supreme Judicial Court.” Mass. Board of
Bar Overseers, https://www.massbbo.org/Who_We_
Are_BBO_OGC#BBO (last visited Oct. 5, 2020).
In California, the State Bar is a public corporation
recognized by the State Constitution within the
judicial article. Cal. Const. Art VI, § 9. The State Bar
functions as “an integral part of the judicial function,”
In re Rose, 22 Cal.4th 430, 438, 993 P.2d 956, 961
(2000) and “‘an administrative arm of this [California
Supreme] court for the purpose of assisting in matters
of admission and discipline of attorneys.’” In re
Attorney Discipline System, 19 Cal.4th 582, 599-600,
967 P.2d 49, 59 (1998)(quoting Lebbos v. State Bar, 53
Cal.3d 37, 47-48, 806 P.2d 317, 323 (1991)(internal
quotations omitted).
Even where the bar association is an entity separate
from the state’s highest court, rules of professional
conduct are generally issued or must be approved by
the court and the court directly delegates authority to
administer discipline. For example, in Arizona, the
state bar is a separate entity and only a minority of
the State Bar’s Board of Governors is appointed by
the Court. Rule 32(a) of the Rules of the Supreme
Court of Arizona, however, provides that, “[t]he Supreme
Court of Arizona maintains under its direction and
control a corporate organization known as the State
Bar of Arizona.” As this Court recognized, the Arizona
Supreme Court “is the ultimate body wielding the
State’s power over the practice of law,” and a rule of
professional conduct issued by the Court is “’compelled

9
by the direction of the State acting as a sovereign.’”
Bates v. State Bar of Arizona, 433 U.S. 350, 360 (1977)
(quoting Goldfarb v. Virginia State Bar, 421 U.S. 773,
791 (1975)). “Although the State Bar plays a part in the
enforcement of the rules, its role is completely defined
by the court; the [State Bar] acts as the agent for the
court under its continuous supervision.” Id. at 361.
By contrast, the administration of attorney discipline in the U.K. has not been a function of the Crown
(the Government). The LSE and SRA are not part of,
and do not act on behalf of, any government entity.
The LSE was formed in 1823, and given a Royal
Charter in 1845 (essentially, recognition as a private
corporate body). See The Charter of the Society 1845.
The LSE’s governing body is and has been elected
by its members. Royal Charter, Clause VIII. The
Government plays no role. “We’re the independent
professional body for solicitors in England and Wales.
We’re run by and for our members.” LSE Website,
About Us, https://www.lawsociety.org.uk/about-us/
(last visited October 2, 2020).
Indeed the Government of the United Kingdom
itself does not view the LSE as part of the Government. In a case before the European Commission of
Human Rights challenging the Law Society’s restriction
on attorney advertising, the Government of the United
Kingdom argued that the European Convention on
Human Rights, which binds only governments, did
not apply to the Law Society. X v. United Kingdom
(Solicitors’ Advertising), 4 E.H.R.R. 350 (1982). The
Commission summarized the Government’s position
as follows:
The legal profession, including its professional body, was, in accordance with the
general principles of free society, independent

10
of government. Accordingly, the respondent
Government could not be held responsible for
the acts of the Law Society.
The Council of the Law Society was not
appointed by the Government but elected by
the profession. The Council did not, in the
performance of their duties, act as servants or
agents of the State.
No Minister of the Government exercised
control over the professional jurisdiction of
the Law Society over solicitors. The Law
Society had none of the immunities or privileges of the Crown: its servants were not civil
servants, and its property was not Crown
property. The Law Society was not an organ
or part of the State.
4 E.H.R.R. at 353.
The SRA was created in January 2007 “as the
independent regulatory body of the Law Society.”
Solicitors Regulatory Authority, Annual Report 20092010 at 9 (2010). Its powers are conferred by the
governing body of the LSE, the LSE Council. Cordery
on Legal Services Issue 63 [151] at D51 (2011). The
SRA has its own Board, established by the LSE
Council. The SRA, a private body acting under authority of the LSE, another private body, exercises statutory
authority to establish rules of professional conduct,
intervene in (that is, close down) solicitors’ law practices, and take other disciplinary measures. Id. The
SRA can close down a solicitor’s practice without any
approval by any court or other authority. Solicitors
Act 1974, § 35 & Sched. 1.
The SRA does not, however, actually suspend or
disbar attorneys. That power belongs to a separate

11
entity, the Solicitors Disciplinary Tribunal (“SDT”),
established by the Solicitors Act 1974 as a statutory
tribunal. Solicitors Act 1974 ch. 47 § 46. The Legal
Services Act 2007 made the SDT completely independent from the LSE. Legal Services Act 2007 ch. 29,
Sch. 16 ¶48. The SRA institutes and prosecutes cases
before the SDT.
The Legal Services Act 2007 then established the
Legal Services Board “(LSB”) as the “the overarching
regulator of legal services.” Cordery on Legal Services
Issue 67 at B-1 [1] (2015). That law designated an
approved regulator for each class of legal professionals, with the LSE recognized an “approved regulator”
of solicitors. Legal Services Act 2007 ch. 29, Sch. 4
Part 1. As an approved regulator, the LSE is subject
to oversight and control by the Legal Services Board,
including imposition of fines on the Society and making
remedial orders. Id. §§ 38-41. Thus, as the Ninth
Circuit correctly recognized, the LSE and SRA “are
accountable to the statutorily-created Legal Services
Board.” Pet. App. 89a.
The Legal Services Board itself, however, is not part
of the Government nor is it in any way accountable
to the Government, as the Ninth Circuit suggested.
While the Lord Chancellor, a Government official,
appoints the members of the Board, the Lord Chancellor
exercises no authority over the operation of the LSB.
To the contrary, the LSB’s authorizing statute, the
Legal Services Act 2007, provides that:
(1) The Board is not to be regarded—
(a) as the servant or agent of the Crown,
or
(b) as enjoying any status, immunity or
privilege of the Crown.

12
(2) Accordingly—
(a) The Board’s property is not to be
regarded as property of or held on
behalf of the Crown, and
(b) The Board’s staff are not to be
regarded as servants or agents of the
Crown or as enjoying any status,
immunity of privilege of the Crown.
Legal Services Act 2007, Sch. 1 ¶26. As the Legal
Services Board itself explains:
The LSB is independent both of government
and the profession. Our Board has a lay
Chairman and a lay majority, meaning that
its membership brings to the table the
perspective of non-lawyers. While the LSB is
part of the public sector, it operates independently of government. This was important
as maintenance of the rule of law was thought
to depend on the regulation of lawyers being
handled independently of government.
Legal Services Board Website, About Us, https://www.
legalservicesboard.org.uk/about-us/who-we-are (last visited Oct. 2, 2020)(emphasis added).
Thus, unlike the entities and agencies regulating
and administering discipline of lawyers in the U.S.,
the LSE and SRA, while performing functions authorized by statute, are manifestly not “acting on behalf of”
the Government of the U.K. The Ninth Circuit in
the instant case clearly erred in conferring foreign
sovereign immunity.
This Court has already recognized the importance
of this issue. In Powerex, the Court granted review
to address the Ninth Circuit’s test. The Court was

13
unable to reach that issue, however, because it found
lack of appellate jurisdiction. Powerex Corp. v. Reliant
Energy Servs., Inc., 551 U.S. 224 (2007). In the instant
case, this Court has the opportunity to address the
issue that it was unable to address in Powerex for
jurisdictional reasons. The Petition should be granted
to overturn the Ninth Circuit’s approach and restore
uniformity on this important issue.
II. SOVEREIGN IMMUNITY SHOULD NOT
BE EXTENDED TO PROTECT PRIVATE
ACTS OF RACIAL DISCRIMINATION
The extension of foreign sovereign immunity by the
Ninth Circuit to the acts of the LSE and SRA is
especially troublesome because of the history and
pattern of racially discriminatory practices by these
entities--a subject which has long been the focus of
attention by amicus, the Society of Black Lawyers. As
noted, the LSE and SRA are not treated as part of the
Government by U.K. law or by the Government itself.
Their acts are not protected under U.K. law as those
of the sovereign (the Crown). It would be illogical and
problematic to allow the LSE and SRA effectively to
export their discriminatory practices to the United
States –as in this case– and enjoy in this country
protection from the consequences of their acts that
these organizations would not enjoy in their home
country, the U.K.
The SBL believes that the treatment of the Petitioner, Mr. Mireskandari, by the SRA, including in
particular the extraordinary repeated dispatch of SRA
investigators overseas, to the U.S., to investigate
Mr. Mireskandari’s background, was undertaken in
retaliation for Mr. Mireskandari’s role in raising the
issues of discriminatory practices by the SRA and
within the U.K.’s law enforcement agencies. That

14
treatment was itself an act of discrimination against
Mr. Mireskandari, exemplifying the very problem he
was trying to expose and publicize.
In 2006, the Law Society published a report concluding that the activities of its disciplinary arm, the
predecessor to the SRA, had a disproportionate impact
on minority solicitors. The Law Society, The Impact
of Regulatory Decisions of the Investigations and
Enforcement Unit on Black and Minority Ethnic
Solicitors (2006). Society statistics revealed continued
discrimination, and there followed calls for reform
from the SBL and other groups, and communications
with Parliament, eventually leading to a Parliamentary
inquiry. See Petition at 7. As noted, in January 2007,
the regulatory and disciplinary functions of the LSE
were assumed by the SRA. The SRA formed a working
group, and then asked Lord Herman Ouseley to
conduct an independent review of the problem.
A report of the results of that review was issued in
July 2008. Solicitors Regulation Authority, Independent
Review Into Disproportionate Regulatory Outcomes for
Black and Minority Ethnic Solicitors (2008)(“Ouseley
Report”). The Ouseley Report concluded that Black
and ethnic minority solicitors were significantly overrepresented in the group of solicitors against which
the SRA had taken serious disciplinary actions, including practice shutdowns (interventions), forensic
investigations and referrals to the Solicitors Disciplinary
Tribunal. Ouseley Report 34-48. For example, while
Asian and Black solicitors accounted for 7.1% of all
solicitors in 2007, they accounted for 33% of all practice
shutdowns. Id. at 41. Similarly, “[f]or black solicitors,
SDT [Solicitors Disciplinary Tribunal] referrals are
consistently and significantly higher than their representation in the profession.” Id. at 43.

15
The Ouseley Report also analyzed conduct of SRA
personnel, underrepresentation of minorities among
the staff and other factors, and concluded that “outcomes, from enrolment [bar admissions] through regulation, through intervention . . . are adversely disproportionate for BME [Black Minority Ethnic] solicitors”
and that if the “outcomes are always disproportionate
and the conditions for operational application of policies, procedures and practices are as described herein,
then the SRA leaves itself open to the potential
charge of institutional racism.” Id. at 50-51. The
Report made a number of recommendations with
regard to organizational culture and personnel practices, and urged that “[e]quality and diversity should
be included as one of the key principles in the SRA’s
decision-making.” Id. at 63.
The issuance of the Ouseley Report occurred shortly
after Mr. Mireskandari filed his own racial discrimination claim against the LSE/SRA and in the midst of
the SRA’s investigation of Mr. Mireskandari. The SRA
investigators were secretly conducting their investigation in the U.S. in the summer of 2008 (and, in fact,
before then); the SRA would intervene in (that is, close
down) Mr. Mireskandari’s own law practice at the end
of that year. See Petition at 8-11.
Six years after the Ouseley Report, yet another
report on the problem of racial discrimination was
commissioned by the SRA. Gus John, Independent
Comparative Case Review—The Solicitors Regulation
Authority (2014) (“John Report”). Although the John
Report, controversially, declined to make any finding
as to institutional racism, the report found a clear
continuation of the pattern of discriminatory outcomes. Between 2009 and 2012 (the very period
during which Mr. Mireskandari’s disciplinary proceed-

16
ing took place), Black and ethnic minority solicitors
made up 13% of the entire solicitor population but
represented 25 percent of “new conduct investigations”
and 33% of the cases referred to the Solicitors Disciplinary Tribunal. John Report ¶1.18 at 10. “Our
analysis . . . showed that BME [Black Minority Ethnic]
solicitors and firms also comprised a higher percentage of those against whom action was taken and were
also subjected to more severe sanctions than their
White counterparts.” Id. ¶1.17 at 10. The Report
made yet another set of recommendations for reforms
of the SRA’s operations.
As damning as the Ouseley Report was with respect
to racially discriminatory conduct of the LSE/SRA, it
could not fully convey the real impact of discriminatory conduct on the lives of minority lawyers. The year
before the Report was issued, Rannee Bassi, a solicitor
and mother of three, was accused by the U.K. Legal
Services Commission of financial fraud in connection
with receipt of fees for representation of indigent
clients. The agency ultimately cleared her of any
wrongdoing, but in the meantime, distraught over the
blow to her reputation and integrity, she committed
suicide. “Solicitor haunted by fraud case is driven to
suicide,” The Standard (June 24, 2007), www.stand
ard.co.uk/news/solicitor-haunted-by-fraud-case-is-driveto-suicide-6592859.html#comments (last visited Oct.
4, 2020).
Despite the cycles of investigations, reports, recommendations and supposed reforms, the SRA’s pattern
of racially discriminatory conduct has continued. Several
recent examples illustrate the persistence and scope of
the problem.
In one case, the SRA investigated and prosecuted
an Asian-Anglo solicitor, Pritpal Chahal, before the

17
Solicitors Disciplinary Tribunal, accusing him of
financial improprieties and conflicts of interest. SDT,
In the Matter of the Solicitors Act 1974 Between Heer
Manak Solicitors, et al., Case No. 11165-2013, Memorandum of Application to Strike Out the Applicant’s
Case (June 23, 2015) (“SDT Chahal Decision”). After
a first SRA investigation, Mr. Chahal was arrested
and criminally charged in November 2011; the court
directed a verdict of acquittal in March 2013. SDT
Chahal Decision ¶20 at 11. In the meantime the
SRA conducted another investigation, leading to the
disciplinary proceeding before the SDT. Id. ¶¶21-22.
Mr. Chahal moved to dismiss the proceeding for
failure to state a case and for abuse of process by the
SRA. The SDT determined that an earlier decision by
an SRA administrative judge (“Adjudicator”), finding
no basis for referral of Chahal to the SDT, had been
improperly withheld from Mr. Chahal, and should
have barred the proceeding altogether. Id. ¶¶338-342
at 98-100. The Tribunal then ruled that the SRA’s
case against this ethnic minority solicitor was not
“properly pleaded” or “supported by adequate and
coherent evidence.” Id. ¶347 at 101. It further held
that the case against Mr. Chahal should be dismissed
for abuse of process, given the “impossibility of holding
a fair trial” (id. ¶348 at 101), based on the way the
investigation had been conducted by SRA investigators as well as the way it had been presented (id. ¶349
at 102); and that “a significant part of the case against
[Chahal] should not, in the opinion of the Tribunal,
ever have been brought . . . .” Id. ¶348 at 102.
More recently, in 2017, the SRA shut down the
law practice of another ethic minority solicitor, Nabeel
Sheikh, accusing him of overcharging a client in a
criminal case. The SRA prosecuted a disciplinary

18
proceeding before the Solicitors Disciplinary Tribunal,
which found that “manner in which the [SRA] had
brought the proceedings before the Tribunal was inadequate, wrong and represented a shambolic approach
to very serious underlying issues.” Solicitors Disciplinary
Tribunal, In the Matter of Solicitors Act 1974 between
SRA and Nabeel Amer Sheikh, Case No. 118212018, Judgment ¶124.13 at 64. (Nov. 15, 2019). The
Tribunal further found that “the lack of independent
investigation undertaken by the [SRA] . . . was
deficient and inadequate on the part of the regulatory
body.” Id. ¶124.12. The Tribunal awarded Sheikh his
costs of defending the proceeding.
Just this past spring, in an echo of Mr. Mireskandari’s
own efforts thirteen years ago and perhaps a sign
of how little has changed, a minority solicitor, Naim
Lone, brought a case against the SRA in the U.K.
Employment Tribunal, alleging that he had been
discriminated, harassed and victimized by the SRA
through disciplinary proceedings prosecuted over the
course of four years. Mr. Lone alleges that the SRA
“has demonstrated ‘deep entrenched racism’ in the
way he has been treated, particularly in comparison
with white individuals involved in the investigation.”
John Hyde, “Solicitor issues unprecedented proceedings against SRA,” The Law Society Gazette (March 2,
2020).
As noted above, amicus SBL believes that the
treatment of the Petitioner, Mr. Mireskandari, by the
SRA was itself an act of racial discrimination against
Mr. Mireskandari. And as the various reports have
documented, that was but one of many such instances
occurring as part of a longstanding pattern of discriminatory conduct by the LSE and SRA. What made Mr.
Mireskandari’s case exceptional, however, was that

19
the SRA carried out activity that was a critical part of
this discriminatory conduct, in the United States.
The SBL is unaware of any other instance in which
U.K. bar organizations have investigated, and committed racially discriminatory and unlawful acts against,
a U.S. citizen on U.S. soil. It would make no sense,
and would offend basic notions of justice, to extend to
these non-governmental entities, the LSE and SRA,
the protections of foreign sovereign immunity for
racially discriminatory conduct. It would be especially
senseless to treat them as governmental, and immunize their conduct here, when their own sovereign in
their own country does not claim them as part of itself
and indeed regards them as private entities that lack
immunity.
The goals of achieving equal and fair treatment for
Black and ethnic minority lawyers in the U.K. would
be significantly impeded by shielding the LSE and
SRA from the consequences of their discriminatory
and illegal conduct in the U.S. in this case. And with
respect to the policy interests of the United States,
there are hundreds of U.S. lawyers residing in and
licensed to practice as solicitors in the U.K., including
many members of minority groups. Those attorneys,
if mistreated by the SRA, would have no recourse in
the U.S. courts if the SRA is afforded sovereign immunity. Further, conferring sovereign immunity on acts
undertaken, within the United States, against foreign
lawyers by foreign nongovernmental bar authorities,
would appear to open the door to campaigns of harassment or worse against lawyers residing in the U.S.
who hail from countries with authoritarian regimes,
and whose advocacy of civil and human rights in their
home countries has offended powerful interests in
those countries.

20
The LSE and SRA do not act on behalf of the
U.K. Government. Their actions challenged by the
Petitioner in this case were part of a pattern of racially
discriminatory conduct repugnant to the values of
the democratic societies of both the U.S. and the
U.K. Those actions do not warrant or merit protection
under the Foreign Sovereign Immunities Act.
CONCLUSION
For the reasons set forth above, the Petition for a
Writ of Certiorari should be granted.
Respectfully submitted,
JOSEPH E. SANDLER
Counsel of Record
SANDLER, REIFF,
LAMB, ROSENSTEIN &
BIRKENSTOCK, PC
1090 Vermont Avenue, N.W.
Suite 750
Washington, D.C. 20005
(202) 479-1111
sandler@sandlerreiff.com
Counsel for Amicus Curiae
October 9, 2020

